OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/BARBADOS’
EASTERN CARIBBEAN
COMMUNITY ACTION PROJECT
AUDIT REPORT NO. 1-534-12-006-P
August 17, 2012




SAN SALVADOR, EL SALVADOR

Office of Inspector General


August 17, 2012

MEMORANDUM

TO:     	       USAID/Barbados Acting Mission Director, Kendra Phillips

FROM: 	         Regional Inspector General/San Salvador, Jon Chasson /s/

SUBJECT:	       Audit of USAID/Barbados’ Eastern Caribbean Community Action Project
                (Report No. 1-534-12-006-P)

This memorandum transmits our final report on the subject audit. In finalizing the audit report,
we considered your comments on the draft report and have included those comments in their
entirety in Appendix II of this report.

The final report includes 12 recommendations to help the mission improve various aspects of
the Eastern Caribbean Community Action Project (ECCAP). Based on your written comments
in response to the draft report, final action has been taken on Recommendations 6, 7, 8, 10 and
12, and management decisions have been reached on Recommendations 1, 2, 3, 4, 5, 9, and
11. Please provide the Audit Performance and Compliance Division of USAID’s Office of the
Chief Financial Officer with evidence of final action to close the open recommendations.

I want to thank you and your staff for the cooperation and courtesies extended to us during this
audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd. Santa Elena
Antiguo Cuscatlán, Depto. La Libertad
San Salvador, El Salvador
CONTENTS 

Summary of Results ....................................................................................................... 1 


Audit Findings ................................................................................................................. 5

     Country Program Offices Were Not Part of the Grant Process as Intended ............... 5

     Community Outreach Workers Were Not Trained to Address Potential Human
     Trafficking Problems ................................................................................................... 6 


     Project Did Not Achieve Sustainable Results ............................................................. 7 


     Performance Results Reported to USAID Had Discrepancies.................................... 9 


     Caribbean HIV/AIDS Alliance Did Not Track Commodities Properly ........................ 10 


     Definition of a Repeat Client Was Not Clear ............................................................. 12 


     Budget and Expenditures by Country Were Not Established or Tracked ................. 13 


     Some Internal Controls Were Not Operating as Intended......................................... 14 


     Some Advances and Reimbursements Were Not Processed Properly .................... 15 


Evaluation of Management Comments ....................................................................... 17 


Appendix I – Scope and Methodology ........................................................................ 20 


Appendix II – Management Comments ..................................................................... 201 


Abbreviations

This report contains the following abbreviations:
ADS                  Automated Directives System
CHAA                 Caribbean HIV/AIDS Alliance
CSO                  civil society organization
CSW                  commercial sex workers
ECCAP                Eastern Caribbean Community Action Project
FBO                  faith-based organization
IEC                  information, education, and communication
IHAA                 International HIV/AIDS Alliance
MARP                 most-at-risk-population
MSM                  men who have sex with men
PLHIV                people living with HIV
PMP                  performance management plan
RIG                  Regional Inspector General
SUMMARY OF RESULTS

According to the Caribbean Regional HIV and AIDS Partnership Framework of 2010-2014,1 the
Caribbean is home to one of the largest populations of people with HIV/AIDS, second only to
sub-Saharan Africa. The framework further states that in 2007, about 14,000 people died of
AIDS, an estimated 20,000 people were infected that year, and another 234,000 were classified
as people living with HIV (PLHIV). While many HIV/AIDS programs have been implemented in
the Caribbean region by other donors (including the United Nations Programme on HIV/AIDS
and the Global Funds to Fight AIDS), few have addressed the most-at-risk-populations
(MARPs), such as commercial sex workers (CSWs) and men who have sex with men (MSM),
as well as PLHIV.

To address these specific needs in the region, on November 1, 2007, USAID/Barbados
awarded a 3-year, $10.5 million cooperative agreement to the International HIV/AIDS Alliance
(IHAA) to implement the Eastern Caribbean Community Action Project (ECCAP). The
agreement was managed on a daily basis by the Caribbean HIV/AIDS Alliance (CHAA), a
member of the IHAA family, and was extended through February 28, 2011.

According to the agreement, ECCAP was uniquely positioned to lead results-driven civil society
responses to HIV and AIDS for MARPs in the Eastern Caribbean to achieve the regional
mission’s goal of increasing access to HIV/AIDS services through evidence-based
programming. The expected results of the project were (1) to increase the use of strategic
information to promote sustainable, evidence-based HIV/AIDS community services and (2) to
increase access to HIV/AIDS community services. ECCAP targeted PLHIV and MARPs in the
Eastern Caribbean countries of Antigua, Barbados, St. Kitts, and St. Vincent.

On March 1, 2011, USAID/Barbados awarded CHAA a 3.5-year, $16.1 million follow-on
cooperative agreement known as ECCAP II. As with the original ECCAP agreement, this
project also has the goal of increasing access to HIV prevention, treatment, and care for MARPs
and PLHIV, but was expanded to include Dominica, Grenada, and Saint Lucia—a total of seven
targeted countries. As of October 1, 2011, ECCAP obligated $10.5 million and disbursed
$10.4 million, and ECCAP II obligated $2.5 million and disbursed $619,400.

The Regional Inspector General/San Salvador (RIG/San Salvador) conducted this audit to
determine whether (1) ECCAP met its goal of improving access to evidence-based HIV services
and (2) ECCAP II was achieving its goal of increasing access to HIV prevention, treatment, and
care for MARPs and PLHIV.

The audit found that while ECCAP had succeeded to some degree by using outreach to
improve access to HIV services, it was not achieving all goals. For ECCAP II, it was too early to
judge its progress.




1	
     This was a joint effort of the U.S. Government, the Caribbean Community, the Organization of Eastern
     Caribbean States, and the governments of Antigua and Barbuda, the Bahamas, Barbados, Belize,
     Dominica, Grenada, Jamaica, St. Kitts and Nevis, St. Lucia, St. Vincent and the Grenadines, Suriname,
     and Trinidad and Tobago.


                                                                                                        1
To implement ECCAP, CHAA established a country program office in each of the four countries,
staffed with a program officer and community outreach workers (known as community
animators) to support programming efforts to target MARPs. Because the workers were often
themselves members of MARPs, they were well placed to inform their clients about
comprehensive prevention services and potentially change their behavior.

The use of community animators proved to be critical to the project’s success, not only because
of their ability to reach the target groups, but also by assisting IHAA’s partners with (1) data
collection for strategic information studies and (2) counseling and testing clients for HIV. In
addition, CHAA became an important resource to the various Eastern Caribbean nations’ AIDS
programs and other stakeholders. CHAA helped build successful partnerships and was
recognized by government officials as a great contributor in reaching MARPs. Through ECCAP,
CHAA also trained community leaders, promoted and distributed condoms and other prevention
commodities, and developed entertainment and educational materials.

Despite these successes, ECCAP never developed case management tools and other
technologies to measure or determine the behavior changes as intended. Although civil society
organizations (CSOs) and faith-based organizations (FBOs) benefited from CHAA’s workshops,
CHAA did not provide these organizations with strategic plans as promised. Also, IHAA
collaborated with the University of California, San Francisco, to assist with the strategic
information studies and with Intrahealth International to introduce community-based counseling
and rapid testing for HIV2 in the four countries. However, while the university completed the
studies, they were too late to be useful during the project to support programming. Intrahealth
International’s problems with health ministries in the countries and limited staffing prevented it
from fully implementing its tasks.

Furthermore, ECCAP did not achieve the sustainable results envisioned in the agreement, and
the country offices and community animator activities ceased without continued project funding.
While CHAA has become an independent regional organization, lack of reliable funding makes
its future uncertain.

ECCAP II had been under way for only 7 months when we conducted the audit. The team
noted that the project experienced some delays during the transition after ECCAP ended, but
nevertheless successfully opened program offices in three other countries, hired staff, and
enhanced the project’s monitoring and evaluation and other internal controls. The auditors noted
that the mission and CHAA benefited greatly from lessons learned during the first project and
applied them to enhance the portions of the follow-on award related to case management and
information technology.

In examining both projects, the audit team found the following areas of concern:

	 Country program offices were not part of the grant process as intended (page 5).

	 Community animators were not trained to address potential human trafficking problems
   (page 6).

	 Project did not achieve sustainable results (page 7).


2
    The test requires less than a single drop of blood and provides HIV status results in just 20 to
    40 minutes as opposed to days or weeks.

                                                                                                  2
   Performance results reported to USAID had discrepancies (page 9). 


   CHAA did not track commodities properly (page 10). 


   Definition of a repeat client was not clear (page 12). 


   Budget and expenditures by country were not established or tracked (page 13). 


   Some of CHAA’s internal controls were not operating as intended (page 14). 


   Some advances and reimbursements were not processed properly (page 15). 


To help USAID/Barbados improve the efficiency and effectiveness of program implementation, 

RIG/San Salvador recommends that the mission: 


1. 	Work with CHAA to implement a monitoring plan to confirm implementation of the
    subgranting process (page 6).

2. 	Work with CHAA to implement detailed guidelines, policies, and procedures on how to
    address potential victims of human trafficking (page 7).

3. 	 Work with CHAA to implement a plan for training community animators on human trafficking
     issues (page 7).

4. 	Assist CHAA in implementing a revised sustainability plan for ECCAP II that includes
    specific strategies to confirm sustainable results (page 9).

5. 	 Work with CHAA to implement a plan to verify reported data (page 10).

6. 	Work with CHAA to implement a plan to track and report all commodities received and
    provided to each country program office (page 12).

7. 	 Direct CHAA to report as separate indicators the number of condoms distributed for free and
     the number of those sold (page 12).

8. 	 Work with CHAA to implement a commodities distribution plan that is consistent with the
     demands or needs of the countries to avoid having significant surpluses at the project’s end
     (page 12).

9. 	Direct CHAA to (1) clearly define and document what constitutes a repeat client and
    (2) based on the definition, adjust targets accordingly (page 13).

10. Require CHAA to prepare and document annual budgets by country, track and report
    expenditures by country, and compare the expenditures with the budgets (page 14).

11. Work with CHAA to correct the internal control deficiencies identified by properly storing the
    data backups and resolving the problems related to the bank accounts in all country
    program offices to allow the receiving and transferring of funds to and from CHAA’s regional
    office and the country program offices and document results (page 15).



                                                                                                3
12. Implement a plan to confirm that advances are processed in a timely manner and made for
    only one month at a time and that reimbursements are made only if unliquidated advance
    balances have been cleared (page 16).

Detailed findings follow. The audit scope and methodology are described in Appendix I.
Management comments are included in their entirety in Appendix II, and our evaluation of
management comments is included on page 17 of the report.




                                                                                         4
AUDIT FINDINGS

Country Program Offices Were
Not Part of the Grant Process as
Intended
According to the ECCAP cooperative agreement, CHAA’s country program offices acted as the
bases for technical and organizational support for community organizations and national AIDS
programs. The staff members in the offices were the primary contacts for those organizations,
as well as for local governments and other civil society partners. The country program offices
were to provide small grants to community organizations, with the intention of increasing the
local capacity to address HIV/AIDS programming efforts. Program officers were charged with
monitoring how these grant funds were used. Grant recipients were to submit detailed scopes
of work and subsequent reports on the use of funds to the program offices.

Although both the agreement and the grant manual prepared by CHAA clearly established these
offices as the bases for support for subgrantees, they were left out of the grant process. In
actuality, CHAA’s regional office provided support and monitored their activities; the only part of
the grant process that program offices took part in was making recommendations to the regional
office about potential subgrantees. The mission’s agreement officer’s representative said she
was not aware of this arrangement.

CHAA’s deviations from the roles and responsibilities defined in the agreement confused the
subgrantees. For example, because the program offices and the subgrantees were in the same
country, the subgrantees often approached the office for assistance. Questions about funding,
payment, and activity support were filtered sometimes through the country program offices, but
program officers were unable to help because documentation and other information were held
at CHAA’s regional office; the officers had to contact that office to get answers. Since the
regional office worked directly with the subgrantees, the program officers were not aware of
changes made to the subgrantees’ activities. Furthermore, according to the ECCAP agreement,
subgrantees were required to submit progress reports to the country program offices. However,
they were submitting the progress reports to the regional office; program officers received the
reports only when they asked for them.

These problems stemmed from a change in how the project was managed and poor
communication that CHAA’s regional office had with its country program offices. During
ECCAP’s first year, both IHAA and CHAA changed much of their leadership, creating disruption
and delays in the project as well as changing opinions about what role the country program
offices should play. Two of the program officers interviewed confirmed that there were
extensive communication problems with the regional office, and the country program offices
were not allowed to act independently as originally planned. Not only were the country program
offices removed from the grant administration process, but also they were not even allowed to
set up meetings with ministries without getting approval first from the regional office.

Not following the grant process plan as designed caused problems between the offices and the
subgrantees. Therefore, this audit makes the following recommendation.




                                                                                                 5
      Recommendation 1. We recommend that USAID/Barbados work with the Caribbean
      HIV/AIDS Alliance to implement a monitoring plan to confirm implementation of the
      subgranting process.

Community Outreach Workers Were
Not Trained to Address Potential
Human Trafficking Problems
Because ECCAP works with CSWs, the project agreement states that ECCAP should ensure
full compliance with the U.S. Government’s Trafficking in Persons directive. The agreement
states that violations of human rights and abuse should be managed appropriately when
encountered during project implementation. This was particularly important in the Eastern
Caribbean because the U.S. Department of State’s Trafficking in Persons’ 2011 Report
categorizes Antigua as a Tier 2 country, while Barbados and St. Vincent are on the Tier 2 Watch
List.3

Community animators interviewed in Antigua and Barbados admitted that some of the CSWs
they worked with might have been victims of human trafficking. Animators in Barbados
explained that many of the workers were recruited throughout the Caribbean islands and Latin
America under the false promise of temporary work opportunities. However, upon reaching
their destination, they discovered that prostitution was the only way they could repay their debt
to the human traffickers for travel and lodging expenses incurred before they could return home.

While some CSWs may be victims of human trafficking, community animators have not been
trained to deal with these situations, and therefore they have not been able to assist victims. A
community animator in Barbados said that while it is obvious that human trafficking is occurring,
addressing the problem may jeopardize the access animators have to bars and clubs where
CSWs congregate; without that access, the animators could not give the sex workers
information about safe sex and ECCAP’s services. According to the executive director of
Antigua’s gender affairs office, at a minimum, CHAA should train community animators on how
to handle trafficking victims since very little is done to reach them.

However, IHAA and CHAA did not have clear policies and procedures on how to address
human trafficking. Furthermore, although CHAA officials agreed that they need to train
community animators on handling trafficking victims, CHAA has not done so yet.

Without appropriate guidelines and sufficient training, ECCAP may be missing opportunities to
help trafficking victims and bring those responsible to justice, as required by the agreement.
Therefore, this audit makes the following recommendations.


3
    There are three tiers, with Tier 1 reserved for countries that fully comply with the Trafficking Victims
    Protection Act, Public Law 106-386, as amended, 22 U.S.C. 7101 et seq. Tier 2 countries do not fully
    comply with the minimum standard, but are making significant efforts to bring themselves into
    compliance. Tier 2 Watch List countries are similar, but (a) the absolute number of victims of severe
    forms of trafficking is very significant or increasing significantly; (b) there is a failure to provide evidence
    of increasing efforts to combat severe forms of trafficking from the previous year, including increased
    investigations, prosecution, and convictions of trafficking crimes, increased assistance to victims, and
    decreasing evidence of complicity in severe forms of trafficking by government officials; or (c) they are
    making significant efforts to bring themselves into compliance with minimum standards based on
    commitment by the country to take additional steps over the next year.

                                                                                                                  6
     Recommendation 2. We recommend that USAID/Barbados work with the Caribbean
     HIV/AIDS Alliance to implement detailed guidelines, policies, and procedures on how to
     address potential victims of human trafficking.

     Recommendation 3. We recommend that USAID/Barbados work with the Caribbean
     HIV/AIDS Alliance to implement a plan for training community animators on human
     trafficking issues.

Project Did Not Achieve
Sustainable Results
Automated Directives System (ADS) 201.34 states that USAID missions should create foreign
assistance programs and activities that maximize the impact of development cooperation.
Missions should build the capacity of specific institutions and related governance systems at the
state (national), regional (subnational), or local levels—or a combination of these three—to
ensure that the results of any work done can last well into the future.

The ECCAP agreement explicitly addressed how sustainability would be achieved. According
to the agreement, IHAA and CHAA would:

	 Collaborate with local entities, national government ministries, and national AIDS programs
     in the four targeted countries, national AIDS centers, all regional AIDS coordinating
     agencies, and relevant stakeholders on each of the islands. This should ensure that
     USAID’s response to the HIV/AIDS epidemic in the Caribbean would result in the creation of
     sustainable, highly technical, and competent CSOs with explicit mandates to make sure that
     project beneficiaries continue to have care after ECCAP ends.

	 Strive to make country program offices self-sustaining community programs with core
   mandates of addressing the prevention, care, and support needs of MARPs and PLHIV.
   According to the agreement, the country program offices should become sustainable local
   organizations that depend on local support from national AIDS programs and civil society
   partners of ECCAP. This transformation would take place during the third year.

	 Make CHAA an independent organization. ECCAP would thereby contribute to helping
   CHAA become the region’s leading indigenous technical resource for organizational
   development and HIV/AIDS prevention.

The audit found, however, that ECCAP did not achieve the sustainable results envisioned in the
agreement. While CHAA did become an independent regional organization, lack of reliable
funding has made its future uncertain. Furthermore:

	 None of the program offices developed sufficient local support to become self-sustaining.
   The weakness of these local organizations was illustrated by the virtual disappearance of
   the offices when ECCAP ended. While some community animators kept serving their clients
   on a voluntary basis until USAID funds became available again under ECCAP II, much of
   the project’s momentum was lost.



4
    ADS Chapter 201 was updated on March 23, 2012.

                                                                                               7
	 CHAA was unable to get national governments, or community organizations to commit funds
   to keep serving the target populations when ECCAP ended. CHAA noted in its reporting
   that the national governments lacked funding and that the government employees working
   on HIV/AIDS projects did not, for the most part, possess the skills and knowledge necessary
   to implement programs to serve MARPs. Thus, while the community animators themselves
   had developed and grown significantly through the training and empowerment that CHAA
   provided, the national governments did not support their work once ECCAP ended.

	 According to CHAA, most community organizations in the region are still characterized by
   “a) short-term goals with their vision, mission and goals focused on projects and
   organizational survival and sustainability; b) project-level strategies; c) project-grounded
   organizational structure; d) limited resources, both human and financial; e) systems, policies
   and procedures based on project requirements and; f) an absence of monitoring and
   evaluation expertise.”

Despite the lack of success in getting national governments and local community organizations
to achieve sustainable results during ECCAP, ECCAP II included a sustainability strategy that
again focused on these two elements. According to ECCAP II:

       Sustainability will be integrated into project activities, with an emphasis on
       creating closer linkages between CSOs, government entities and other regional
       organizations. Thus, under ECCAP II, CHAA will work closely with NAPs and
       Ministries of Health on all islands in order to ensure that country initiatives are
       appropriate, feasible, well implemented and sustainable. In addition, according
       to the agreement, sustained collaboration and coordination will contribute to
       greater technical and organizational capacity among CBO and other CSO across
       the region, and enhance sustainable programming for HIV and AIDS prevention,
       treatment care and support.

The strategy of simply working closely with government agencies and community organizations
is well intended, but it is the same strategy that failed to achieve sustainable results under
ECCAP. The strategy failed because CHAA and USAID/Barbados did not consider and
implement specific measures to integrate the program into other U.S.-supported HIV/AIDS
activities, or to analyze and address weaknesses related to the institutional capacity of
community and civil society organizations.         Alternative strategies to enhance future
sustainability might include:

Greater Integration Into Other U.S.-supported HIV/AIDS Activities. USAID/Barbados
officials said they are actively seeking ways to help address the problem of sustainability
because it is not an issue for ECCAP alone. According to the mission, USAID is seeking ways
to help countries better understand what they need to prevent the spread of HIV/AIDS.
Additionally, USAID/Barbados is also supporting efforts to better integrate HIV programs within
the health sector. To increase the sustainability of CHAA’s efforts, the ECCAP initiatives might
be integrated more thoroughly into other related efforts.

Implementation of Rigorous Analysis of Project Sustainability. USAID’s most recent
Project Design Guidance explains the kinds of analyses missions should conduct to help them
define the degree of sustainability that is essential for a project’s success. According to the
guidance, they should:



                                                                                               8
	 Analyze sustainability related to numerous important issues, including economic, financial,
   social soundness, cultural, institutional capacity, political economy, technical/sectorial, and
   environmental. Missions should analyze the institutional capacity that projects need,
   including systems, policies, and skills. This analysis should include the sustainability
   objectives of the project or project components (and indicate how the project intends to meet
   these objectives).

	 Conduct “an in-depth assessment of the local institutions and systems most critical to the
   project’s success, including an assessment of the quality of leadership, structure, and staff,
   and identification of their administrative and financial management strengths and
   weaknesses.”

Without an appropriate sustainability strategy, the general goal of having national governments
and local organizations sustain the work of ECCAP II has little chance of succeeding.
Therefore, we are making the following recommendation.

   Recommendation 4. We recommend that USAID/Barbados assist the Caribbean
   HIV/AIDS Alliance in implementing a revised sustainability plan for the Eastern
   Caribbean Community Action Plan II that includes specific strategies to confirm
   sustainable results.

Performance Results Reported
to USAID Had Discrepancies
ADS 203.3.5 lists data quality standards for USAID program data. Among other qualities, it
states that data must be precise and valid. The mission should be confident that progress
toward performance targets reflects real changes rather than variations in data collection
methods. The guidance further states that data should be as complete and consistent as
management needs and resources permit.

Under ECCAP, the CHAA regional office collected and reported results from all the country
program offices to USAID. However, the auditors could not verify some of the results because
the supporting documentation was not available at the office. For the information that was
available, the auditors noted the following discrepancies for the indicators in Table 1
(judgmentally selected from the first quarter of 2010).

                         Table 1. Results Reported Versus Audited

         Country                  Indicator              Reported   Verified     Difference
                       Number of condoms distributed       55,649       54,749         (900)
                      Number of lubricants                  8,556        9,376           820
                      distributed
                      Number of people reached               494          515            21
         Antigua
                      through HIV prevention
                      activities
                      Number of people referred for          368          399            31
                      counseling and testing services
                      Number of condoms distributed        17,318       12,416      (4,902)
                      Number of lubricants distributed     11,110        9,049      (2,061)
        Barbados
                      Number of people referred for           266          152        (114)
                      counseling and testing services

                                                                                                9
           Country                Indicator                Reported   Verified     Difference
                        Number of condoms distributed        35,062       34,363         (699)
          St. Vincent   Number of lubricants distributed      6,925        4,996       (1,929)
       Sources: CHAA regional office and country program offices

There were also significant discrepancies with the number of information, education, and
communication (IEC) materials (informational brochures that give clients information about
HIV/AIDS) that CHAA delivered. The auditors noted that items such as wallets, bags, coasters,
and pouches were counted incorrectly as communication materials distributed, resulting in an
overstatement of 4,841 IEC materials in three of the country program offices visited.
Furthermore, a review of the offices’ detailed spreadsheets of commodities distributed during
the quarter had numerous mathematical errors.

These discrepancies occurred because CHAA did not have a process in place to verify reported
data by country program office. In addition, significant changes to the CHAA monitoring and
evaluation personnel from ECCAP to ECCAP II caused a loss of historical information.

Although CHAA has created new procedures and updated many of its monitoring and
evaluation tools to track commodities better, these changes did not address data verification
efforts to confirm that results reported to USAID are valid, accurate, and reliable. Managers
need accurate, reliable data to determine project effectiveness; without them, the project’s
accomplishments and impact cannot be determined. To address these concerns, this audit
makes the following recommendation.

     Recommendation 5. We recommend that USAID/Barbados work with the Caribbean
     HIV/AIDS Alliance to implement a plan to verify reported data.

Caribbean HIV/AIDS Alliance Did
Not Track Commodities Properly
The General Accountability Office’s Standards for Internal Control in the Federal Government5
states that transactions and internal controls need to be documented clearly and should be
readily available for examination. The guidance also states that “transactions should be
promptly recorded to maintain their relevance and value to management in controlling
operations and making decisions” and that vulnerable assets should be counted and compared
with control records periodically to help reduce the risk of errors, fraud, misuse, or unauthorized
alteration.

Under ECCAP, male and female condoms, lubricants, Spanish and English IEC materials, and
HIV rapid tests were procured and received at the CHAA regional office and later shipped to the
four country program offices (with the exception of the IEC materials in Spanish, which were
sent to Antigua). CHAA made procurements based on the proposed amounts of commodities
budgeted and approved each year.

However, CHAA did not maintain records for any of the commodities received or distributed,
with the exception of female and male condoms—and records for those contained the following
discrepancies:


5
    GAO/AIMD-00-21.3.1, November 1999.

                                                                                                 10
	 According to USAID/Barbados shipment records, 2.241 million male and female condoms
   were procured, but CHAA’s records showed that 2.286 million condoms were procured—a
   difference of 45,000.

	 ECCAP’s final progress report stated that more than 1.5 million male and female condoms
   were distributed during the project, but CHAA’s records showed that more than 1.8 million
   were distributed—a difference of more than 321,000 condoms.

CHAA said the discrepancies occurred because some condoms were distributed to other CHAA
country program offices that were not part of ECCAP. However, even if commodities were
provided to those other offices, this information should have been tracked.

In addition, during site visits to some country program offices, the audit identified IEC materials
and lubricants that had been distributed during ECCAP but were not included in the offices’
inventory balance at the beginning of ECCAP II. CHAA was able to provide beginning balances
for condoms in two of the four initial country program offices, but the information for amounts
received and distributed did not match the reported information, making it impossible to
reconcile the ending balance.

ECCAP reported indicators for each commodity distributed, but ECCAP II did not, with the
exception of condoms. For them, the indicator tracks condoms sold and condoms distributed
free as a combined indicator. While distributing free condoms has always been part of the
project, selling them is a new strategy under ECCAP II that is managed through Population
Services International, a new partner under CHAA. Consequently, these two channels of
distributing condoms should be separate indicators in order to determine any behavioral
changes in a country.

Finally, records related to condoms and IEC material distributions contained a number of
inconsistencies and unexplained variations during ECCAP implementation, especially during the
last quarters in late 2010. For example, according to CHAA’s records:

	 Between October 2008 and March 2010, the Barbados country program office never
   distributed more than 9,000 IEC materials during any quarter. However, during the two
   quarters from April to September 2010, the Barbados office distributed more than
   21,000 IEC materials per quarter.

	 Between October 2007 and June 2010, the Antigua country program office never distributed
   more than 69,000 condoms during any quarter. However, during the quarter from July to
   September 2010, the Antigua office distributed more than 125,000 condoms.

	 Between October 2007 and June 2010, the Antigua country program office never distributed
   more than 6,500 IEC materials during any quarter. However, during the quarter from July to
   September 2010, the office distributed more than 29,000 IEC materials.

	 The number of condoms distributed by the St. Vincent and Antigua country program offices
   was more than four times larger than St. Vincent’s population and more than five times
   larger than Antigua’s population throughout the 3 years under ECCAP.

According to CHAA officials, one of the causes for the surge in 2010 was the uncertainty of
whether the project would continue. The ambiguity of the project’s follow-on award led CHAA to


                                                                                                11
close some of its country program offices and eliminate staff. As a result, many of the offices
tried to eliminate as many of the commodities they had, indicating that CHAA may have
overestimated the amount of commodities needed for the project.

The lack of controls over commodities received and distributed could lead to potential waste and
abuse of commodities and funds. Furthermore, without adequate monitoring, management is
unable to determine how many commodities each country program office needs. Therefore, we
make the following recommendations.

   Recommendation 6. We recommend that USAID/Barbados work with the Caribbean
   HIV/AIDS Alliance to implement a plan to track and report all commodities received and
   provided to each country program office.

   Recommendation 7. We recommend that USAID/Barbados direct the Caribbean
   HIV/AIDS Alliance to report as separate indicators the number of condoms distributed
   free and the number of those that were sold.

   Recommendation 8. We recommend that USAID/Barbados work with the Caribbean
   HIV/AIDS Alliance to implement a commodities distribution plan that is consistent with
   the demands or needs of the countries to avoid significant surpluses at the project’s end.

Definition of a Repeat Client
Was Not Clear
One of ECCAP II’s indicators is Number of MARP reached with individual and/or small group
level HIV prevention interventions that are based on evidence and/or meet the minimum
standards required. This indicator tracks the outreach work that community animators do to
educate new and repeat clients on behavior change and prevention activities. Tracking repeat
clients is important because it helps determine a client’s behavior change and the impact that
the community animators are having on MARPs and PLHIV. Although CHAA defines a repeat
client as one who has been contacted and provided a service more than once, the organization
has not defined clearly a process for determining behavior change in a repeat client or when to
stop considering a client as a repeat client.

According to CHAA, it generally takes six to eight interventions with a repeat client to determine
whether behavior has changed. Determining and tracking the behaviors of a repeat client has
been extremely difficult. Under ECCAP, the community animators were supposed to use the
case management files to help track and identify repeat clients. They did not, and historical
information on repeat clients was not maintained. Under ECCAP II, CHAA has implemented a
tracking system giving each client a unique identifier code, which should help track and
measure behavior change and allow community animators to maintain case management files
on their clients. However, because community animators did not develop case management
files under ECCAP, no historical data was available on the clients to determine if they were new
or repeat under ECCAP II.

Furthermore, the targets established under ECCAP II for repeat and new clients may be
skewed. The targets for new clients were based on new clients whom community animators
contacted at the start of the project (and their intent was to turn 80 percent of those people into
repeat clients). However, some of the clients considered for the baseline data were also clients
under ECCAP. Instead of considering these as repeat clients or clients who met the behavior

                                                                                                12
change criteria, all were considered new clients under ECCAP II. As a result, the targets
established for new and repeat clients may misrepresent the actual target population and the
impact the project is having on behavior changes.

Also, while most of the MSM and PLHIV population is stable, the CSW community is transient.
That makes it difficult to meet the repeat client targets, especially in popular tourist spots such
as Antigua and Barbados. Moreover, many CSWs were on temporary visa status (usually in a
country for only a few weeks), therefore they are unlikely to become repeat clients.

Without a clear definition of what constitutes a repeat client, the project is not able to measure
the behavior changes and the impact that it has on vulnerable populations accurately.
Therefore, this audit makes the following recommendation.

   Recommendation 9. We recommend that USAID/Barbados direct the Caribbean
   HIV/AIDS Alliance to (1) clearly define and document what constitutes a repeat client,
   and (2) based on the definition, adjust targets accordingly.

Budget and Expenditures by
Country Were Not Established
or Tracked
According to the ECCAP and ECCAP II awards, IHAA and CHAA must list each country’s total
amount of funds expended under the award as part of their financial reporting. Additionally,
22 Code of Federal Regulations 226.21 states that the recipient’s financial management
systems should provide a comparison of outlays with budget amounts for each award.
Whenever appropriate, financial information should be related to performance and unit cost
data. Therefore, comparisons of expenses to budgeted amounts on a country-by-country basis
should be tracked to confirm that the project is efficient and effective.

ECCAP provided funding for four countries in the Caribbean totaling $10.5 million, while ECCAP
II expanded to include seven countries with total funding of $16.1 million. While CHAA’s
regional office submitted an overall project budget to the mission, no budgets were established
for any of the countries. Furthermore, CHAA did not develop a breakdown of budgeted
expenditures on a monthly, annual, or quarterly basis for each country as required by the
agreements. Therefore, costs incurred by each country program office could not be compared to
budgeted amounts to determine if the project was progressing as intended.

Additionally, CHAA’s accounting general ledger for ECCAP II had not been designed to track
expenses incurred by each country program office. For instance, data on expenses related to
community animators incurred in each country could not be extracted easily from the system
without having to review each expense individually.

USAID did not enforce compliance with the agreement by requiring the recipient to track
budgets on a country-by-country basis. Although country-by-country expenditures were not
tracked and monitored during ECCAP’s implementation, CHAA was able to provide total costs
incurred for each country at the end of the program. However, without an established budget, it
was difficult to determine if these expenditures were reasonable.

Furthermore, the audit found no evidence that CHAA utilized country-by-country information
when determining resource levels. As shown in Table 2, for example, although Barbados had

                                                                                                13
the greatest number of PLHIV (2,100), total project expenditures were very similar with Antigua
whose PLHIV (791) was less than half that of Barbados. St. Vincent and St. Kitts both incurred
more or less the same amount of project costs, but St. Vincent’s PLHIV was double that of
St. Kitts. These are examples of data that could be useful when determining the reasonableness
of the costs incurred and when making other decisions.

                   Table 2. Analysis of Country Expenditures and Statistics

                    Antigua          Barbados         St. Kitts        St. Vincent           Total
Total project
costs incurred          804,170          739,131          475,181            438,218          2,456,700
by country
Percent
allocation of                33               30                19                 18               100
funds
PLHIV per
                            791            2,100               453                935             4,279
country

Sources: USAID and CHAA. 

* Data for PLHIV were obtained from the USAID HIV/Health profile report of April 2011, which estimated
the PLHIV population of Barbados at 2,100 and 0.2 percent to 0.9 percent of the total population for the
region.

Tracking down expenditures by country, comparisons of budgets to actual expenditures, and
statistics on a country-by-country basis would help management review and confirm that the
project is functioning in an efficient, effective manner. To correct this situation, this audit makes
the following recommendation.

    Recommendation 10. We recommend that USAID/Barbados require the Caribbean
    HIV/AIDS Alliance to prepare and document yearly budgets by country, and track and
    report expenditures by country and compare it to the budgets.

Some Internal Controls Were
Not Operating as Intended
According to 22 Code of Federal Regulations 226.21(b)(6), recipients are required to maintain
written procedures for determining the reasonableness, allocability, and allowability of costs in
accordance with federal cost principles and the terms and conditions of the award.
Furthermore, Office of Management and Budget Circular A–133, Section 300(b), indicates that
the organization is responsible for maintaining internal control over federal programs that
provides reasonable assurance that it is managing federal awards in compliance with laws,
regulations, and the provisions of contracts or grant agreements that could have a material
effect on programs.

While CHAA has developed detailed policies and procedures supporting internal controls for
ECCAP II, we noted that in some instances internal controls were not operating as intended.

	 Data backups were conducted monthly rather than daily as required by CHAA’s policies and
   procedures. Also, the backups were not stored in a fireproof safe as CHAA required;
   instead, they were stored in a computer room that was not fireproof. CHAA officials said
   they feared storing them in a small space might generate heat, which would damage the
   files.

                                                                                                     14
	 Each country program office was required to have a local bank account. However, we noted
   that bank accounts were not fully functional at six of the seven offices; they could not
   receive or transfer funds from/to CHAA’s regional office in Trinidad because they had not
   received the proper paperwork and approvals that the local banks needed. CHAA was
   working to resolve this problem but encountered delays because it was difficult to obtain all
   the approvals for nonprofit organizations.

Proper internal controls over data backups and bank accounts help reduce the risk of losing
data in case of an adverse event and misappropriation of assets. Therefore, we make the
following recommendation.

   Recommendation 11. We recommend that USAID/Barbados work with the Caribbean
   HIV/AIDS Alliance to correct the internal control deficiencies identified by properly
   storing the data backups and to resolve the problems related to the bank accounts in all
   country program offices to allow the receiving and transferring of funds to and from the
   Caribbean HIV/AIDS Alliance’s regional office and the country program offices, and
   document the results.

Some Advances and
Reimbursements Were
Not Processed Properly
According to ADS 636, advances shall be limited to the minimum amount needed for
“immediate disbursing needs” and paid as close as is administratively feasible to the actual
disbursements being made by the recipient organization. The directive defines immediate
disbursing needs for periodic advances as a period of up to 30 days from the date received until
expended. In addition, ADS 636 also states that mission controllers must be sure that requests
for advances are reasonable and not excessive to the recipient’s immediate disbursement
needs, outstanding advances are monitored on an ongoing basis, and funds in excess of
immediate disbursement needs are refunded to USAID. ADS 636.3.2.3 explains that as part of
its reimbursement process, the Agency is responsible for making the payments as close as
possible to the 30th day after receipt of the billing. In addition, both agreements allowed the
recipient to submit the request for advances on a quarterly basis for each month.

The audit identified the following problems with advances and reimbursements related to
ECCAP:

	 USAID sometimes processed advances late. For instance, three requests for advances
   from 2008 were not processed until 2009.

	 Contrary to ADS 636 guidance, USAID/Barbados made reimbursements even though IHAA
   still had unliquidated advances. For instance, on February 2, 2009, USAID/Barbados told
   IHAA in a letter that it could ask for advances based only on current disbursement needs
   because liquidations had not been recorded against the advances USAID had already
   made. However, IHAA received a reimbursement 6 months later in August totaling
   $238,699 while it still had unliquidated advances worth $571,217.

According to the mission, these problems were a result of IHAA’s poor reporting and lack of
internal controls to ensure that advances and reimbursements were recorded properly.

                                                                                              15
The lack of controls over processing advances and reimbursements may result in misreporting
and potentially misappropriated funds. Therefore, we make the following recommendation.

   Recommendation 12. We recommend that USAID/Barbados implement a plan to
   confirm that advances are processed in a timely manner and made for only one month at
   a time and that reimbursements are made only if unliquidated advance balances have
   been cleared.




                                                                                           16
EVALUATION OF MANAGEMENT
COMMENTS
Based on our evaluation of USAID/Barbados’ comments on our draft report, we have
determined that final action has been taken on Recommendations 6, 7, 8, 10, and 12. In
addition, management decisions have been reached on Recommendations 1, 2, 3, 4, 5, 9, and
11. Our evaluation of mission comments appears below.

Recommendation 1. In response to this recommendation, the mission stated that the
subgranting process is already documented in CHAA’s Onward Grant Manual. The roles for
staff are clearly articulated with an emphasis on the significant role for the program officers in
each country in relation to (1) the selection of grantees, (2) provision of technical assistance to
grantees, and (3) the monitoring of grant implementation. We reviewed the manual (issued in
2010, under the previous project) and confirmed that the program officer and CPO are included
in the process. Therefore, this part of the recommendation has been deleted from the report.
For the second part of the recommendation, the mission agreed to ask the CHAA regional office
to review the grant manual with all staff and develop a monitoring plan for implementation by
September 30, 2012. Based on the mission’s described actions and time frames, a
management decision has been reached for this recommendation.

Recommendations 2 and 3. The mission accepted both recommendations and will work with
CHAA to draft appropriate guidelines and protocols, and to be sure that the requisite training for
all program officers and community animators is completed. According to the mission, CHAA is
currently in the process of developing guidelines and procedures on the importance of this
subject and has asked the mission for help with the activity; completion is expected by
November 30, 2012. The mission will also ask that follow-up to this training be included in all
future training for staff and community animators. Based on the mission’s described actions
and time frames, a management decision has been reached for both recommendations.
Recommendation 4. The mission accepted this recommendation and stated that CHAA will
document a sustainability plan by December 30, 2012. Based on the mission’s described
actions and time frames, a management decision has been reached for this recommendation.

Recommendation 5. The mission agreed that this is critical and will continue to work with
CHAA’s enhanced monitoring and evaluation plan to ensure that data and results are
supported, accurate and verifiable. According to the mission, there is now an additional
member on the USAID HIV/AIDS team whose purview is to assist with the overall monitoring
and evaluation activities of the HIV/AIDS portfolio. This team member will verify data in the
mission’s PMP and for all U.S. President’s Emergency Plan for AIDS Relief (PEPFAR)
reporting. CHAA is in the process of recruiting a new monitoring and evaluation advisor, and by
October 30, 2012, CHAA will have reviewed and amended the monitoring and evaluation guide
as appropriate. Based on the mission’s described actions and time frames, a management
decision has been reached for this recommendation.

Recommendations 6 and 8. The mission agreed with recommendations related to tracking
commodities and has worked with CHAA to carry them out. CHAA’s commodity monitoring user
guide and commodity monitoring tool were amended. The commodity management system was
revised in November 2011 to better monitor the process by which commodities are procured,

                                                                                                17
stored, handled and distributed. The system assists CHAA’s offices in their efforts to assess
and manage their commodity distribution to beneficiaries, according to specified quantities,
selection criteria, and priorities. . We reviewed CHAA’s user guide and monitoring tool, and we
determined that the revisions addressed both recommendations. As a result, final action has
been taken for Recommendations 6 and 8.

Recommendation 7. The mission agreed with the recommendation. Officials there said that
condoms received by USAID for free distribution have been tracked separately from condoms
sold by Population Service International and will be reported under two separate indicators. The
mission provided the audit team with the new indicators. As a result, final action has been taken
for this recommendation.

Recommendation 9. In response to the recommendation, the mission noted that the unique
identifier tracking system was not maintained under ECCAP. This made it difficult to establish
at the onset of ECCAP II whether a client reached for the first time was in fact someone who
participated in the previous project. Therefore under EC-CAP II, CHAA defined new clients as
people who received interventions by community animators for the first time. These clients are
given unique identifier codes (UICs) and are then counted as repeat clients for the duration of
the project. Additionally, in order to follow behavior change, CHAA introduced a tool to provide
better information about each client.

Mission officials said that each year they consider whether to adjust targets and have scheduled
to do this for ECCAP II by November 30, 2012. Based on the actions taken and time frames
identified, a management decision has been reached for this recommendation.

Recommendation 10. In response to this recommendation, the mission noted that the
controller’s office has been in contact with CHAA to make sure it has developed budgets for all
the country program offices and that these budgets are monitored. On May 29, 2012, a
financial analyst from USAID/Dominican Republic6 visited CHAA and confirmed that CHAA has
developed budgets for all countries.

The mission provided the audit team a copy of the offices’ budgets for the first and second years
of ECCAP II, along with their expenditures with the breakdown of various operating costs. As a
result, final action has been taken on this recommendation.

Recommendation 11. In response to this recommendation, the mission noted that on May 29,
2012, a financial analyst from USAID/Dominican Republic visited CHAA and confirmed that
CHAA is backing up data on the server daily. Mission officials said two copies of the backup
tapes are maintained; one is kept in a fireproof cabinet in the office, and another is kept off site.
CHAA has opened three bank accounts and plans to open the remaining accounts by August
31, 2012. Based on the actions taken and time frames established, a management decision
has been reached.

Recommendation 12. The mission accepted this recommendation. Officials said
USAID/Dominican Republic will work with the agreement officer’s representative to monitor
closely the advances, liquidation, and reimbursement process to comply with this
recommendation and to be sure that, requests for funds and liquidation of funds under ECCAP
II have been handled consistently and in a timely manner. The mission provided a plan of

6
    USAID/Barbados’ contracting and financial management is handled by staff members in the USAID
    mission in the Dominican Republic.

                                                                                                  18
action and communication on how advances and liquidations will be handled with CHAA. As a
result, final action has been taken on this recommendation.




                                                                                      19
                                                                                     Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/San Salvador conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions in accordance with our audit objective. We believe that the evidence obtained
provides that reasonable basis.

The purpose of the audit was to determine (1) if ECCAP met its goal of improving access to
evidence-based HIV services, and (2) if ECCAP II is achieving its goals of increasing access to
HIV prevention, treatment, and care for MARPs and PLHIV. We conducted fieldwork at
USAID/Barbados and at field locations in and around Barbados, Trinidad and Tobago, Antigua
and Barbuda, and St. Vincent and the Grenadines from October 16 to November 4, 2011.
Additionally, we had conference calls with the staff at USAID/Dominican Republic, IHAA
partners, and a subgrantee.

The audit covered activities under two USAID/Barbados awards. The first, ECCAP, was
implemented by IHAA; it was a 3-year, $10.5 million cooperative agreement from November 1,
2007, to February 28, 2011. The second, ECCAP II, implemented by CHAA, was awarded as a
$16.1 million cooperative agreement to implement the follow-on award to ECCAP from March 1,
2011, to September 30, 2014. As of October 1, 2011, USAID/Barbados had obligated
$2.5 million and disbursed $619,400 to implement ECCAP II.

The audit focused on activities implemented by USAID/Barbados, IHAA, and CHAA from
November 1, 2007, to November 4, 2011. In planning and performing this audit, we included in
the audit scope a review of internal and financial controls put in place by USAID/Barbados and
its partners related to their activities. Management controls assessed included those related to
the agreement process, monitoring and evaluation procedures, plans and policies established,
and monitoring of performance indicators.

Methodology
To answer the audit objective, we obtained an understanding of the mission’s program goals.
We interviewed officials from USAID/Barbados, USAID/Dominican Republic, CHAA, IHAA, and
partners under ECCAP. We reviewed award documents to obtain an understanding of the
projects’ goals, objectives, activities, monitoring and evaluation requirements, measurement of
project results, and financial controls. We also reviewed and analyzed relevant documents and
data at the mission and at CHAA’s regional and country program offices to determine program
accomplishments. Documents included annual work plans, quarterly reports, progress reports,
agreements USAID/Barbados had with IHAA and CHAA, financial data, and other evaluations.

We conducted site visits to observe and discuss the progress of the activities, and we
interviewed government officials, subgrantees under ECCAP, and staff at country program
offices.
                                                                                   Appendix II



MANAGEMENT COMMENTS 





MEMORANDUM 


DATE:	 	      August	7,	2012	


FROM:		       Kendra	Phillips,	Acting	USAID	Representative	/s/	


THRU:		       Amr	Elattar,	Regional	Controller	


SUBJECT:	     Audit	of	USAID/Barbados’	Eastern	Caribbean	Community	Action	Project	


TO:	 	    Office	of	Inspector	General		
	
REF: Audit of USAID/Barbados’ Eastern   Caribbean Community Action
Project -- Audit Report No. 1-534-12XXX-P

MISSION RESPONSES:
This Memo, with input from the technical implementing partner, has sought to respond to the
Audit findings and recommendations. Please see the Mission’s responses noted below.

AUDIT FINDINGS:

Country Program Offices’ Granting Capacity Was Not Implemented as
Intended
Mission/Partner Response:

The structure of the Caribbean HIV/AIDS Alliance (CHAA) is that of a regional office with
country offices (CO) functioning as the implementing arms of CHAA’s programme of work
across the region. As such CHAA’s country offices are not autonomous entities, but operate
within the framework of CHAA’s policies, guidelines and procedures. We agree that a level of

                                                                                              21
                                                                                      Appendix II


autonomy is required to ensure the smooth functioning of the country offices including
maintaining and strengthening its linkages to the national response. Responsibility will continue
to be devolved to programme staff over the life of the project and commensurate with growth
and capacity of all staff.

While the cooperative agreement defines a role for the CO around support to implementing
partners this is not an autonomous function and is linked to the type of grant provided.
Specifically, closed call grants are awarded in consultation with COs on the basis of agreed
criteria – such as track record of the partner and area of programmatic alignment with project
goals and objectives. Further, where closed call grants are awarded COs are assigned the
responsibility to support the development of the proposal, monitoring and evaluation plan and
budget. These proposals are then taken through the granting process as defined in the CHAA
grants manual. Once grants are awarded, COs are required to provide on-going monitoring
support to the implementing partners with technical and financial back stopping by the Regional
Office. Additionally, all partner reports are forwarded to the Regional Office through respective
COs. Members of the project management team (PMT) also undertake periodic monitoring and
support visits with implementing partners to ensure the full range of technical assistance
required is available to both the CO and the recipients.

In relation to open call grants, the application process is competitive – which involves tendering
by any civil society applicant which assesses that it meets the criteria set out for the award
grants. Once the expression of interest is received by the Regional Office and assessed to
meet the criteria for granting, communication is forwarded to the CO to inform them of the
grants received and potential area of programmatic focus. However, the process for awarding
grants has been carefully defined in our granting manual – and requires a more rigorous and
transparent procurement process to carefully assess the bids submitted.

It is our belief that our partners do not see the segregation between the CHAA Regional and
Country Office. However, there are instances where it is necessary for the Regional Office to
lead project implementation and others in which the COs will lead. It is imperative that COs
understand the scope and intent of the involvement of the Regional Office in order to minimise
the misconceptions about areas of autonomy. Thus through continuous dialogue and
collaboration with the COs the goals of the programme can be achieved.

From a more “contextual perspective” the recommendation fails to take into account the full
scope of the onward granting process – in relation to technical review and management
process, financial management and quality assurances. These “specialisms” do not reside in
our COs – but with the Project Management and Technical Teams which are based at the
CHAA Regional Office. The approach recommended by the Audit team will require a greater
level of staffing and infrastructure than was ever put in place for either grant.

Overall, while CHAA agrees that it will be helpful to continuously review roles and
responsibilities of all staff to ensure the most effective programme delivery; it is felt that the
recommendation does not take account of CHAA’s operational structure and should be revisited
against a more complete understanding of the organisation.

Recommendation: We recommend that USAID/Barbados work with Caribbean HIV/AIDS
Alliance to (1) document what role and responsibilities the country program offices have in the
sub granting process under ECCAP II and (2) develop a monitoring plan to ensure
implementation of sub granting process.


                                                                                               22
                                                                                         Appendix II


Mission Response to Recommendation:

The Mission does not accept the first part (1) of this recommendation. The process of sub
granting is documented in their Onward Grant Manual. The roles for staff are clearly articulated
with an emphasis on the significant role for the Program Officers in country in relation to: 1) the
selection of grantees, 2) provision of technical assistance to grantees and, 3) the monitoring of
grant implementation.

The mission accepts the second part (2) of this recommendation. The Mission will request that
the CHAA Regional Office review the Onward Grant Manual with all staff and develop a
monitoring plan for implementation by September 30th, 2012. (Onward Grant Manual attached).

Community Outreach Workers Were Not Trained to Address Potential
Human Trafficking Problems
Mission/Partner Response:

CHAA recognises the significance of addressing the issue of Human Trafficking within its
programme.       Under the previous grant, some COs and Community Animators (CAs)
participated in training provided at the country level. CHAA agrees that the issue is taking on
increased significance within the region and is committed to ensuring both staff and CAs are
provided with the necessary training that will allow all project staff to have the information sand
skills necessary to appropriately respond to situations of human trafficking.

CHAA is currently in the process of developing guidelines and procedures to guide our
response to this important issue. CHAA welcomes the support and guidance of
USAID/Barbados in implementing training and ensuring our policies are compliant with USAID
and global best practice.

Recommendation 2: We recommend that USAID/Barbados work with Caribbean HIV/AIDS
Alliance to implement detailed guidelines, policies, and procedures on how to address potential
victims of human trafficking.

Recommendation 3: We recommend that USAID/Barbados work with Caribbean HIV/AIDS
Alliance to implement a plan for training community animators on human trafficking issues.

Mission Response to Recommendations:

USAID/Barbados accepts these Recommendations and will work with CHAA to ensure that
appropriate guidelines and protocols are drafted and that the requisite training for all Program
Officers and Community Animators is completed. CHAA has requested USAID/Barbados to
assist with this activity and we are working to complete this by November 30th, 2012.
USAID/Barbados will also request that follow up to this training be institutionalized into all future
training for staff and Community Animators.

The Mission will work with CHAA to develop the guideline and protocols and complete the initial
training for staff by November 30th. USAID/Barbados will request that follow up trainings are
incorporated into all of their scheduled trainings for staff including the Community Animators.
These trainings occur at different points throughout the course of the year. The Mission is
already in discussions with CHAA on this matter.

                                                                                                  23
                                                                                      Appendix II



ECCAP Did Not Achieve Sustainable Results
Mission/Partner Response:

The following narrative highlights the steps being taken to promote the sustainability of the core
elements of this program at the country level. A core pillar of CHAA’s approach is to promote
and facilitate country specific sustainable responses of programming for MARP as well as to
contribute to the sustainability of civil society organisations in the national HIV response. On
this basis CHAA continues to work collaboratively with international, regional, national and local
partners to ensure successful achievement of programme results and impact. As such, mutually
beneficial partnerships have been sought which facilitate the exchange of technical expertise
and harmonisation of approaches at the country level. Collaborations with a broad range of
organisations also help to promote sustainability as programming is integrated into on-going
initiatives. The unique nature of EC-CAP also enables CHAA to contribute evidence-based input
into policy and programming discussions. Several areas of our work have and continue to
contribute to the production of regional public goods and resources that will remain with
countries beyond the life of the project.

International and Regional
U.S. Centres for Disease Control and Prevention (CDC) Global AIDS Programme is working
globally to build capacity in communities for a decentralised community-based counselling and
rapid testing (CBCRT) model and securing CDC’s global expertise in doing this is a major
success. A key achievement is the partnership developed between CHAA and CDC, both at the
Regional level and with the Global AIDS programme in support of its work in Antigua and
Barbuda. CDC has importantly collaborated with CHAA and Ministries of Health (MOH) to
introduce the Risk Assessment Data Form into counselling and testing (CT), which is also a
major achievement for improved national data collection. CDC has also supported
recommendations made by CHAA to the MOH that CBCRT targeting most-at-risk populations
(MARP) be incorporated into the country’s national rapid testing strategy. Another significant
achievement has been the adaptation of CDC’s CT MARP training into EC-CAP. This also
provides the basis for our current work under ECCAP II and it is envisioned that this will become
the model for the region.

CDC has also been a key partner around the adaptation and evaluation of the evidence based
intervention SISTA (Sisters Informing Sister on Topics on AIDS) – providing critical input and
support to monitoring and quality assurance.

In addition CHAA has worked collaboratively with Population Services International, Pan
Caribbean Partnership Against AIDS (PANCAP), United Nations Joint Program on HIV/AIDS
(UNAIDS), British Department for International Development (DFID), Pan American Health
Organization (PAHO), Caribbean Health Research Council (CHRC), Caribbean HIV/AIDS
Regional Training Network (CHART), United Nations Population Fund (UNFPA) and the
Organization of Eastern Caribbean States (OECS) and will continue to deepen these
relationships in the coming year. CHAA has also developed relationships with a series of other
organisations:
-       Caribbean Vulnerable Communities Coalition (CVC),
-       Caribbean Harm Reduction Coalition,
-       Centre for Orientation and Integral Research (COIN),
-       Caribbean Broadcast Media Partnership (CBMP).


                                                                                               24
                                                                                      Appendix II



National
Country Offices and technical staff continue to work on establishing, developing and sustaining
relationships with key stakeholders in each country. This is integral to ensuring buy-in and
commitment at two levels: i) to ensure access to services for MARP; and ii) to promote a
collaborative approach that supports national programming and sustainability. These
relationships are varied and include a broad range of civil society organizations (CSOs), as well
as government Ministries and Agencies (NAPs, Health, Education, Gender Affairs and Social
Affairs among others). These relationships have enabled CHAA to move forward in many areas
including CT, where the partnership model is proving to demonstrate good results in ANB and
Barbados. EC-CAP I and II are aligned with NAPs and build on capacity and services where
they exist, and critically addresses programming gaps to facilitate increased access to services
for MARP. Additionally, CHAA continues to support national efforts to improve data collection
through documenting and disseminating MARP specific information and to assist countries in
their UNGASS reporting.

CHAA also works collaboratively with CSOs – providing both grants and technical assistance.
This sustained collaboration and coordination contributes to facilitating greater technical and
organisational capacity among CBOs and other CSOs across the region, enhances sustainable
programming for MARP HIV programming, and improves community programme delivery.

Another major platform to CHAA’s approach is social capital building within the MARP
community.      CHAA works through CAs to ensure that MARP receive comprehensive
combination prevention interventions along the continuum of care. This involves deepening of
the role of CA and developing an accredited network of MARP peers. This will result in a
regional network of professionally trained MARP peers integrated into national responses and
leadership roles, guaranteeing greater and more meaningful MARP involvement. This approach
therefore contributes to greater acceptance and sustainability of MARP in the national response.

CHAA however recognises the on-going challenges around country ownership and agrees that
greater and more coordinated efforts are required to achieve sustainability. It should, however,
be noted that this issue is intimately linked to the economic reality of many of these countries
which has seen the HIV and AIDS response externally funded as well as impacted on the high
levels of debt and vulnerability of their economies. Additionally, given the high levels of stigma
and prohibitive legal frameworks attached to homosexuality and sex work in particular, there
remains resistance in some settings to either allocation of human and financial resources to be
engaged in responses for these populations.

CHAA welcomes the collaboration of USAID/Barbados in developing and implementing
innovative approaches to promoting sustainable results.

Recommendation 4: We recommend that USAID/Barbados assist Caribbean HIV/AIDS
Alliance in implementing a revised sustainability plan for Eastern Caribbean Community Action
Plan II that includes specific strategies to ensure sustainable results.

Mission Response to Recommendation:

The Mission accepts this recommendation. CHAA has undertaken a number of steps, through
EC-CAPII, to work towards the sustainability of the USG investments in HIV prevention. CHAA
will be requested to document these steps and other specific strategies in a sustainability plan
by December 30th, 2012.

                                                                                               25
                                                                                      Appendix II



Note: The issue of sustainability has been, and remains to be a complex one, especially given
the sensitivity and controversial nature of the populations and behaviours being addressed by
this project. This is further compounded by the resource limitations of these countries and the
fact that they have been heavily reliant on external donor resources to fund many facets of their
respective national responses and these resources are declining. This challenge is not unique
to this region and PEPFAR as a whole is also seeking to address this issue.

Performance Results Reported to USAID Had Discrepancies
Mission/Partner Response:

Under EC CAP II, CHAA has sought to address the gaps that contributed to some challenges in
relation to the tracking of commodities and reporting of results. A well-defined and robust
monitoring and evaluation and reporting system has been introduced and is integrated across
the project to allow for stronger management of all results under the program.

# Data Quality
Data quality was an important component of EC-CAP and is highlighted in the M&E guide (p.14)
and the M&E step by step (p4-6; p10-11) documents (see attached). While these documents
still need to be updated to reflect the new tools used under EC-CAP II, the M&E principles and
guidelines remain the same with data quality check still being in place. CHAA agrees that data
verification is essential and have taken steps to ensure that results reported to USAID are valid,
accurate and reliable.

Under EC-CAP II Data quality visits were already performed in the following countries:
       Antigua: 16/01/12 – 19/01/2012
       Dominica: 29/02/12 -02/03/2012
       St Kitts: 29/01/12 -01/02/2012
       St. Vincent: 23/02/12 – 26/02/2012
       Barbados: 29/05/12 – 31/05/12
       St. Vincent: 29/05/12 – 31/05/12

Part I Data accuracy /data verification
The following were performed during the field visit:
   Documentation review
        -	 Ensure that data is recorded by animator correctly and reflects accurately the
           intervention conducted
        -	 Review availability and completeness of source documents
        -	 Cross check reported results with animators notebooks
        - Review available documentations of supervised outreach

        -

Part II Systems assessment
Data entry
        -	 Ensure there is one designated staff responsible for data entry into database and
           submission to HQ
        - Ensure that all levels of data quality at CO is followed
Commodity system
        -	 Review animators distribution log book
        -	 Review support document for partners distribution
        -	 Review Commodity reports in country

                                                                                               26
                                                                                      Appendix II


       -	   Ensure that animator’s distribution (from outreach tools) matches with distribution
            logbook and commodity reports
       -	   Ensure that commodities are in a controlled stored room/facility

Additionally, a routine part of PMT monitoring and support visits includes reviewing compliance
with agreed M&E guidance.

USAID Data Quality Assessment
A technical consultant from MEASURE Evaluation Project visited the CHAA HQ office over the
period 23rd and 24th August, 2011. The purpose of the visit was to conduct a Data Quality
Assessment of all indicators which CHAA reported under the EC-CAP Cooperative Agreement.
The Baseline Year used for conducting the assessment was October 2009 to September 2010
(USAID FY09.) The assessment revealed that the data quality for indicator P8.3.D was very
good and that the introduction of Unique Identifier Codes will improve data collection and
provide better “face validity” for this indicator.

It also recognized the need for strengthening data quality for indicator P11.1.D and taking
appropriate steps necessary for obtaining approval from the MOH to keep duplicate records of
Animator-provided HIV Testing and Counselling services. The consultant recommended that
PEPFAR Indicators P9.1.N P9.2.N, P9.3.N, and P9.4.N are national indicators and should not
be collected under EC-CAPII. Recommendation was also made to revise and strengthen the
data collection tools to include Prevention with MARPS, PwP, and Care Services.

Recommendation 5: We recommend that USAID/Barbados work with Caribbean HIV/AIDS
Alliance to implement a plan to verify reported data to ensure that the reported results are
supported, accurate, and verifiable.

Mission Response to Recommendation:

The Mission agrees that this is critical and will continue to work with CHAA’s enhanced plan to
ensure that data and results are supported, accurate and verifiable. Since this audit was
conducted there is now an additional member on the USAID HIV/AIDS team whose purview is
to assist with the overall monitoring and evaluation activities of the HIV/AIDS portfolio. Our new
Team Member commenced work on December 5th, 2012. This position was articulated in the
organizational chart which was provided to the Audit Team and was noted as “under
recruitment”, the position is now filled. Copies of the USAID Health Team Organizational Charts
are attached. This team member will follow up from the DQA and will verify data in relationship
to the Mission’s PMP and for all PEPFAR related reporting. The M&E Advisor for CHAA is
anticipated to commence duties on September 10th, 2012 and by date October 30th, 2012
CHAA will review and amend the M&E Guide as appropriate.

Caribbean HIV/AIDS Alliance Did Not Track Commodities Properly
Mission/Partner Response:

Commodity Distribution:

Under EC-CAP commodity distribution was reported without disaggregation of condom type. 

Therefore male condom distribution and female condom distribution were amalgamated and 

reported together. In addition commodity distribution was reported without disaggregation of

outreach type (that is outreach distribution, large events and implementing partners distribution),



                                                                                               27
                                                                                         Appendix II


outreach forms only reflecting distribution done through community animator outreach
interventions. Attached are the commodity reports received at HQ from Antigua, Barbados and
St Vincent for EC-CAP Q 10 which show both male and female condom distribution as well as
implementing partners and large events distributions. See summary below:

                 Country/             Male          Female             Lubricants
                 Distribution         condom        condom
                 type
                 Antigua
                 Animators                 19436                556           3078
                 IP                        26100               1325           3000
                 Public events,
                 large distribution         8350                132           2478
                                           53886              2013
                 Total
                                                             55,899          8,556
                 Barbados
                 Animators                 11220                150           6760
                 IP                          704                  0           2252
                 Public events,
                 large distribution         5096                148           2098
                                           17020                298
                 Total
                                                             17,318         11,110
                 St. Vincent
                 Animators                   6800               132            943
                 IP                          3000               289           2000
                 Public events,
                 large distribution        24578                263           3982
                                           34378                684
                 Total
                                                             35,062          6,925


Commodity Distribution and Monitoring Tools
At the core of the Eastern Caribbean Community Action Project II, is the Community Animator
Model which features community-based peer outreach as a primary vehicle for accessing
MARPs. As part of the behaviour change intervention, Community Animators provide condoms,
lubricants, oral dams and literature and other materials to support risk reduction. Providing IEC
materials substantiates the verbal messages provided by the Animator and provides a greater
level of detail. In addition, promotion of prophylactic materials may empower individuals to adopt
particular prevention techniques to help lower their risk. Aside from the BCC interventions, these
prevention commodities are also distributed to other programmes and projects or events
supported by EC-CAP II.

In order to effectively manage the distribution and uptake of these commodities in the field,
CHAA’s commodity management system was revised (November 2011) to better monitor the
process by which commodities are procured, stored, handled and distributed, including
forecasting of condom requirements. The system assists both the CHAA Head Office as well as
its country offices (CO) in their efforts to assess and manage their commodity distribution to
intended beneficiaries, according to specified quantities, selection criteria and priorities. It also
provides a mechanism to readily transmit each country’s data to the M&E team for use in

                                                                                                  28
                                                                                     Appendix II


generating reports to CHAA management for the purpose of planning, monitoring and
evaluation.

The primary measurement tools include: (i) Commodity Distribution and Monitoring database (ii)
Commodity Receipt Form (iii) Commodity Requisition Form. Existing monitoring tools, including
Animator Outreach tools, Implementing Partners (IPs) Quarterly Programmatic Reports and
programme reviews supplement the primary measurement tools.

All COs were trained in the use of the Commodity management system at the beginning of the
project. The Commodity Distribution and Monitoring database is completed each time
commodities are received or distributed and submitted to the M&E team on a monthly basis.
This allows HQ to track each COs’ distribution and stock balance and determine gaps and areas
that need strengthening.

Under EC-CAP II the updated commodity reporting system will allow for more effective
monitoring the distribution of all commodities, including condoms, lubricants, oral dams and IEC
materials.

Condoms received by USAID for free distribution will be tracked separately from condoms sold
by Population Service International and will be reported under two separate indicators.

This updated system will allow a stronger management of commodities and IEC material.
Please note that the Commodity Monitoring User Guide and Commodity Monitoring Tool have
been revised and amended.

Recommendation 6: We recommend that USAID/Barbados work with Caribbean HIV/AIDS
Alliance to implement a plan to track and report all commodities received and provided to each
country program office.

Recommendation 7: We recommend that USAID/Barbados direct Caribbean HIV/AIDS
Alliance to report condoms distributed free and those sold as separate indicators.

Recommendation 8: We recommend that USAID/Barbados work with Caribbean HIV/AIDS
Alliance to implement a commodities distribution plan that is consistent with the demands or
needs of the countries to avoid significant surpluses at the project’s end.

Mission Response to Recommendations:

CHAA has already taken the requisite steps to address recommendations 6, 7 and 8 as noted
above. Attached please see The Commodity Monitoring User Guide and The Commodity
Monitoring Tool both of which have been amended since the audit was conducted (November
2011).

Since October 2011 condoms received by USAID for free distribution have been tracked
separately from condoms sold by PSI. The attachments: ‘Condom Distribution’ and ‘Q5’
illustrates the condom tracking.

Definition of a Repeat Client Was Not Clear

Mission/Partner Response:

                                                                                               29
                                                                                        Appendix II



Under EC CAP a unique identifier tracking system was not maintained, as such it was difficult to
establish at the onset of EC-CAP II whether a client reached for the first time had already been
met under the previous project by Community Animators. Therefore under EC-CAP II, CHAA
has defined a “new” client as someone who has received an intervention by a
Community Animator and is issued a unique identifier code for the first time. Once a
client has been given a UIC code, he/she will be counted as a “repeat” client for all
follow-up interventions throughout the life of the project.

In addition, in order to follow behaviour change, CHAA introduced in their outreach tool a
component recording the “Stages of Change” of the client. (Please see follow up form attached).

This model identifies the six stages of behaviour change including:
     Uninterested, unaware or unwilling to make a change (unaware/ pre-knowledge; also
       known as the pre-contemplation stage);
     Considering a change (Thinking about change; also known as the contemplation stage);
     Deciding and preparing to make a change (preparing for change; preparation stage);
     Genuine, determined action is then taken by the client (Action!) and;
     Over time, attempts to maintain the new behaviour occurred (Maintaining/Sticking to
       change);
     Relapses are almost inevitable and become part of the process of working toward life­
       long change.

Community Animators are guided to work with their clients, checking in on them regularly to
help them maintain their healthy behaviour in the prevention of HIV and other sexually
transmitted infections.

Under EC-CAPII in the “Outreach Handbook” developed by the M&E team – new and repeat
clients are well defined and we are confident the animators know how to capture this
correctly. Internally the challenge is in establishing exactly how many clients are being followed
up i.e. working out the “reoccurrence rate”. The M&E team is currently working to provide further
clarification on how best to capture this.

Recommendation 9: We recommend that USAID/Barbados direct Caribbean HIV/AIDS
Alliance to (1) develop a clear definition of what constitutes a repeat client, and (2) based on the
definition, adjust targets accordingly.

Mission Response to Recommendation:

CHAA maintains a supported and verifiable process for reporting and documenting repeat
clients – supported by the introduction of the UIC and the repeat intervention log sheet (see AC
One on One Follow-up Community Animator Tool attached). Therefore Recommendation 9(1)
has already been addressed. The Mission will monitor this quarterly, semi-annually and
annually as Progress Reports are received. In relation to Recommendation 9(2), this is already
embedded into the Mission’s annual processes. Consideration is given to the achievements
reported and adjustments are made to targets, as appropriate, on an annual basis (November)
following an analysis of the results achieved. Information from these reporting periods is also
used to update the Mission’s PMP.




                                                                                                 30
                                                                                      Appendix II


Budget and Expenditures by Country Were Not Established or
Tracked
Mission/Partner Response:

Country Office Budgets
In the execution of the ECCAP Project, CHAA provided funding for four countries in the
Caribbean. CHAA was able to capture the total costs incurred for each country at the end of the
Project’s life. However, since no budget was implemented for each country, during the life of this
project, comparison of expenses to the budgeted amounts on a country-by-country basis was
not possible.

In the execution of the ECCAP 11 Project, CHAA has established annual budgets for all the
seven countries in which the program is rolled out. These budgets are further broken down into
monthly budgets. Actual expenses against these budgets are captured on a monthly basis and
are compared to the budget to ensure the efficiency and effectiveness of the Project.

Tracking of Expenditure by Country Offices
Expenditure for each country office is captured in CHAA’s accounting general ledger. However,
the report does not total the expenditure for each country office. Each country office expenditure
is coded and captured accordingly. The expenditure for each country office can therefore be
done easily by transferring the information on excel and reformatting the report.

Recommendation 10: We recommend that USAID/Barbados require Caribbean HIV/AIDS
Alliance to develop yearly budgets by country and track and report expenditures by country and
compare it to the budgets.

Mission Response to Recommendation:

USAID/Controller’s office has been in contact with CHAA. This organization has been
developing budgets for all the country offices and these are being monitored. Attached is a copy
of the country offices budget for Year one along with the actual expenditure.

A USAID/DR Financial Analyst visited CHAA on May 29, 2012 and confirmed that CHAA has
developed budgets for all countries.

The Attached consists of a detailed breakdown of the budget against actual expenditure for
Year 1 (March 1st 2011 to February 28th 2012).

The Revised Year 2 file indicates the detailed budget for Year 2 (March 1st 2012 to February
28th 2013). However, the actual expenditure recorded is up to May 2012.

Some Internal Controls Were Not Operating as Intended

Mission/Partner Response:

CHAA has policies and procedures that support internal controls. These are reviewed on a
regular basis (annually) to ensure the effective operation of the organisation.



                                                                                               31
                                                                                         Appendix II


Data Backup

CHAA has been backing up its data three times a week (Mondays, Wednesdays and Fridays)
since April 2011. When the auditors were here in October 2011, this was shown to them and
verified. In March 2012 we upgraded our server so as to improve the entire process. A copy of
the backup file is currently being kept in a vault while another copy is being kept out of the office
compound for security reasons.

Local Bank Accounts

The process of registration and opening of the bank accounts has taken much longer than
anticipated. CHAA currently has seven country offices in the Caribbean. To date, three of these
offices have fully functional bank accounts. They are Antigua, Barbados and St. Vincent. In
three other countries the documents have been submitted to the relevant banks and we are
awaiting confirmation on the opening of these accounts. The countries are Grenada, St. Lucia
and St. Kitts.

We are still waiting on the registration of the Dominica office before pursuing the opening of the
bank account in that country. We are having some challenges with the lawyer who is currently
working on this matter. If we are unable to get positive feedback by the next two days from the
lawyer, we may have to take alternative action to ensure the speedy opening of this account.

In these countries that the bank accounts are not yet opened, funds are disbursed on a request
basis and are properly monitored by the Trinidad office. It is anticipated that the bank accounts
in Grenada, St. Lucia and St. Kitts will be opened in the next few weeks as the relevant
documentation has been submitted to facilitate this process.

Recommendation 11: We recommend that USAID/Barbados work with Caribbean HIV/AIDS
Alliance to correct the internal control deficiencies identified by properly storing the data
backups and resolving the issues related to the bank accounts in all country program offices to
allow the receiving and transferring of funds to and from the Caribbean HIV/AIDS Alliance’s
regional office and the country program offices.




                                                                                                  32
                                                                                     Appendix II


Mission Response to Recommendation:

A USAID/DR Financial Analyst visited CHAA on May 29, 2012 and confirmed that CHAA is 

currently backing up data on the Server on a daily basis. There are two copies of the backup 

tapes. One is kept in a fire proof cabinet in the office and another is kept off site.


In regards to open bank accounts in each country CHAA has opened three bank accounts and it 

is in the process to open the remaining four.


Status of Bank Accounts: 

CHAA has functioning back accounts in Antigua, Barbados and St. Vincent. In respect of the 

other countries the status is as follows: 


   	 Saint Lucia – The bank requested some additional information on the Directors. These
      were submitted on Tuesday 10th 2012
   	 Grenada – All forms and documents were submitted. A call was made to our contact
      person at the bank on 7/20/12 and she indicated that she has not yet reviewed them.
      She will do so today and provide feedback later.
   	 St. Kitts – The bank requested some additional information on the Directors. This was
      submitted to them on Friday 6th July, 2012. The Bank personnel when contacted on
      Tuesday 10th 2012 indicated that they are yet to review and approve the information.
   	 Dominica – The registration is still being finalized before the process can start to open
      the bank account. We are awaiting feedback from the lawyer on the registration. He was
      last contacted on Monday 9th July, 2012.

Update as of 19th July from FMO based on communication with CHAA:

An estimated date for the opening of all of the remaining bank accounts is the end of August 

2012. 


Some Advances and Reimbursements Were Not Processed Properly

Mission/Partner Response:

In respect to ECCAP 1, advances were requested by IHAA and therefore it was not CHAA’s
responsibility to do so. In the ECCAP 11 project CHAA liquidates on a monthly basis and the
request for funds has been consistent and timely.

Recommendation 12: We recommend that USAID/Barbados implement a plan to ensure that
advances are processed in a timely manner and made for only one month at a time and that
reimbursements are made only if unliquidated advance balances have been cleared.

Mission Response to Recommendation:

USAID/DR will work with the AOR to monitor closely the advances, liquidation and
reimbursement process to comply with this recommendation related to CHAA. USAID/Barbados
accepts this recommendation.

“CHAA will be required to submit liquidation for advances by the first day of each month. For
example, funds advanced at the end of December (Dec 26) for January would be reported as
expenses on the recipient's liquidation voucher for January. This January liquidation voucher

                                                                                                 33
                                                                                         Appendix II


should be received by USAID within 30 days after month end, or by March 1. USAID processes
the liquidation voucher along with an advance request for April within 30 days. The expenses
would be recorded, the advance for January liquidated and a new advance for April distributed
to the Grantee near the end of March.”

                                    Report          Advance      Liquidate
                                    Date           request       advance
                                    September       October      July
                                    October         November     August
                                    November        December     September

It is the grantee's responsibility to deliver to the Controller’s office both an advance request and
liquidation on the 1.st of each month. The AOR will be responsible for enforcement on a
monthly basis while USAID/DR will monitor closely and will review the Aged Project Advance
Outstanding Report on a quarterly basis. For all advances over 90 days a Bill for Collection will
be issued to the grantee and no further advances will advance is liquidated.




                                                                                                  34
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
